<html>
<title> - CONFIRMATION HEARING ON THE NOMINATIONS OF RACHEL L. BRAND, ALICE S. FISHER, AND REGINA B. SCHOFIELD TO BE ASSISTANT ATTORNEYS GENERAL</title>
<body><pre>[Senate Hearing 109-205]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-205
 
 CONFIRMATION HEARING ON THE NOMINATIONS OF RACHEL L. BRAND, ALICE S. 
   FISHER, AND REGINA B. SCHOFIELD TO BE ASSISTANT ATTORNEYS GENERAL

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 12, 2005

                               __________

                          Serial No. J-109-19

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
22-785                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
                       David Brog, Staff Director
                     Michael O'Neill, Chief Counsel
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Brownback, Hon. Sam, a U.S. Senator from the State of Kansas.....     1
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   188

                               PRESENTERS

Cochran, Hon. Thad, a U.S. Senator from the State of Mississippi 
  presenting Regina B. Schofield, Nominee to be Assistant 
  Attorney General, Office of Justice Programs, Department of 
  Justice........................................................     6
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa 
  presenting Rachel L. Brand, Nominee to be Assistant Attorney 
  General, Office of Legal Policy, Department of Justice.........     4
Harkin, Hon. Tom, a U.S. Senator from the State of Iowa 
  presenting Rachel L. Brand, Nominee to be Assistant Attorney 
  General, Office of Legal Policy, Department of Justice.........     5
Lott, Hon. Trent, a U.S. Senator from the State of Mississippi 
  presenting Alice S. Fisher, Nominee to be Assistant Attorney 
  General, Criminal Division, Department of Justice..............     7
McConnell, Hon. Mitch, a U.S. Senator from the State of Kentucky 
  presenting Regina B. Schofield, Nominee to be Assistant 
  Attorney General, Office of Justice Programs, Department of 
  Justice........................................................     3

                       STATEMENTS OF THE NOMINEES

Brand, Rachel L., Nominee to be Assistant Attorney General, 
  Office of Legal Policy, Department of Justice..................     8
    Questionnaire................................................    10
Fisher, Alice S., Nominee to be Assistant Attorney General, 
  Criminal Division, Department of Justice.......................    41
    Questionnaire................................................    42
Schofield, Regina B., Nominee to be Assistant Attorney General, 
  Office of Justice Programs, Department of Justice..............    84
    Questionnaire................................................    85

                         QUESTIONS AND ANSWERS

Responses of Rachel L. Brand to questions submitted by Senators 
  Cornyn, Leahy, Kennedy, and Durbin.............................   114
Responses of Alice S. Fisher to questions submitted by Senators 
  Durbin, Leahy, and Kennedy.....................................   139
Responses of Alice S. Fisher to additional questions submitted by 
  Senators Kennedy and Durbin....................................   164
Responses of Regina B. Schofield to questions submitted by 
  Senators Durbin, and Leahy.....................................   174


     CONFIRMATION HEARING TO BE ASSISTANT ATTORNEY GENERAL FOR THE 
                         DEPARTMENT OF JUSTICE

                              ----------                              


                         THURSDAY, MAY 12, 2005

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 4:10 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Sam Brownback 
presiding.
    Present: Senators Brownback and Grassley.

 OPENING STATEMENT OF HON. SAM BROWNBACK, A U.S. SENATOR FROM 
                      THE STATE OF KANSAS

    Senator Brownback. The hearing will come to order. Thank 
you all for joining us today for this confirmation hearing 
process. Senator Specter has asked that I host and chair this 
confirmation hearing and I look forward to the testimony and 
the presentations of the various witnesses.
    Obviously, by the array of stars we have here supporting 
those nominees, these are outstanding, stellar nominees. I 
don't know that I have seen a panel quite this powerful 
supporting the list of nominees any time that I have chaired a 
hearing. So this must be a mighty good group, and I am certain 
that it is.
    We convene the hearing today to consider President Bush's 
nomination of three outstanding individuals to serve as 
Assistant Attorneys General at the Department of Justice. The 
Department's Criminal Division, Office of Legal Policy and 
Office of Justice Programs are critical agencies charged with 
everything from prosecution of the war on terror to the 
provision of grants to combat drug trafficking and domestic 
violence. The President understands the importance of the 
missions of these agencies, as shown by the high caliber of 
these outstanding women who, if confirmed, would lead them.
    Rachel Brand has been nominated to be Assistant Attorney 
General at the Office of Legal Policy. Ms. Brand has developed 
an extensive record of high achievement. After graduating from 
the University of Minnesota and Harvard Law School, Ms. Brand 
served as a law clerk to Justice Charles Fried, of the Supreme 
Judicial Court of Massachusetts, in 1999. Following her 
clerkship, she joined the law firm of Cooper, Carvin and 
Rosenthal. Her work there included a variety of trial and 
appellate litigation.
    In January 2001, she was chosen to serve at the White House 
in the Office of Counsel to the President, first as an 
assistant counsel and then as an associate counsel. In these 
capacities, she has provided legal and policy advice to White 
House officials on a wide range of challenging issues.
    She left the White House to serve as a law clerk to Supreme 
Court Justice Anthony M. Kennedy during the 2002-2003 term. 
After her clerkship, Ms. Brand became Principal Deputy 
Assistant Attorney General in the Office of Legal Policy at the 
Department of Justice. In this position, she has worked to 
develop and implement a variety of civil and criminal policy 
initiatives, and assisted in supervising all aspects of the 
office's work.
    Alice Fisher, nominated to head the Department's Criminal 
Division, has a distinguished record and a wide range of 
experience. She received her B.A. from Vanderbilt and her J.D. 
from Catholic University Law School. After law school, she 
worked for several years as an associate at Sullivan and 
Cromwell, where she represented corporations in civil 
litigation, and also represented a death row inmate in a habeas 
corpus appeal.
    In 1995 and 1996, Ms. Fisher served as Deputy Special 
Counsel to the U.S. Senate Committee investigating the 
Whitewater Development Corporation and related matters. In that 
role, she supported the Senate's investigation and assisted in 
drafting the final report.
    In 1996, Ms. Fisher returned to private practice, this time 
at the law firm of Latham and Watkins. At Latham, she was a 
member of the litigation department and the white collar 
practice group. Her practice focused on the representation of 
corporations in government investigations and complex civil 
litigation. In 2001, she became a partner. From 2001 until 
2003, Ms. Fisher served as Deputy Attorney General in the 
Criminal Division of the Department of Justice, excellent work 
there.
    Regina Schofield, nominated to head the Office of Justice 
Programs, will bring a wealth of experience to the position. 
Ms. Schofield graduated from Mississippi College and received 
her MBA from Jackson State University. She currently serves as 
Director of Intergovernmental Affairs and White House Liaison 
at the Department of Health and Human Services. She previously 
was Manager of Governmental Relations at the U.S. Postal 
Service.
    As Director of Intergovernmental Relations at HHS, Ms. 
Schofield has been instrumental in advancing intergovernmental 
relations with over 562 federally-recognized tribal 
governments. She has developed the Department's first 
comprehensive tribal consultation policy and has worked to 
establish formal mechanisms to create an open door for tribes 
regarding the Department's policy and budget process. She has 
also worked to streamline the grants process, thereby 
increasing public awareness of government-funded programs and 
services.
    We have a distinguished panel of Senators to introduce, as 
well, these nominees. I don't know if anybody has a particular 
time commitment that they need to go through. If not, we 
usually go from my left to right, unless somebody has a 
particular time commitment.
    If not, the Honorable Senator Trent Lott will be the first 
witness.
    Senator Lott. Senator Brownback, at this time I think maybe 
I would like to defer. Maybe you could work the other way. I 
think the distinguished Whip may have other responsibilities.
    Senator Brownback. That is a good thought.
    Senator McConnell, we just jumped to the other end of the 
table here and we will work from that place.

   PRESENTATION OF ALICE S. FISHER, NOMINEE TO BE ASSISTANT 
ATTORNEY GENERAL, CRIMINAL DIVISION, DEPARTMENT OF JUSTICE, BY 
HON. MITCH MCCONNELL, A U.S. SENATOR FROM THE STATE OF KENTUCKY

    Senator McConnell. Well, far be it from me to turn down 
that opportunity. Thank you very much, Senator Lott.
    Mr. Chairman, I am thrilled to be here today to introduce 
Alice Fisher, the President's nominee to be the Assistant 
Attorney General of the Criminal Division at DOJ. Ms. Fisher is 
a battle-tested veteran of the war on terror, and with her 
confirmation she will once again take up a place on the front 
lines of that struggle.
    She joined the Justice Department in July of 2001 as Deputy 
Assistant Attorney General of the Criminal Division. She was 
placed in charged of counterterrorism efforts. Two months later 
came September 11. After that horrific day, our Government 
responded forcefully and quickly. Ms. Fisher's role was vital 
to the fight.
    She was responsible for national coordination of the 
Government's efforts to stamp out these evil acts, including 
all matters related to September 11 investigations and 
prosecutions. She coordinated the investigation and prosecution 
of international and domestic terrorist groups, terrorist acts 
and terrorist financing. She headed up USA PATRIOT Act 
implementation and she coordinated the Justice Department's 
efforts with the FBI, the Department of Defense, the CIA, the 
NIC and the White House.
    The man who then held the job to which Ms. Fisher has been 
nominated, her old boss, was Michael Chertoff, now, as well 
know, the Secretary of Homeland Security. Secretary Chertoff 
and Ms. Fisher served together in the Justice Department for 
two years. Before their Justice Department service, they were 
both partners at Latham and Watkins, and before that Ms. Fisher 
and Secretary Chertoff both served as counsels for a U.S. 
Senate special committee. Secretary Chertoff, who has worked 
closely with her over the years, has called her, quote, ``one 
of the best lawyers I have seen in my entire career,'' end 
quote.
    The Criminal Division of the Justice Department must focus 
on matters other than terrorism, of course, and Ms. Fisher is 
equally talented to deal with those matters as well. As Deputy 
Assistant Attorney general, she headed up efforts to combat 
corporate fraud just at a time that the collapse of Enron and 
other corporate scandals were front-page news. She supervised 
all corporate fraud matters at Justice, including the 
securities accounting and health care areas. She participated 
in the drafting of Sarbanes-Oxley and worked closely with the 
Securities and Exchange Commission on policy issues.
    She was born and raised in my hometown of Louisville, 
Kentucky, as part of a close-knit family. She has five older 
brothers and sisters. Her father ran a chemical plant and her 
mother worked the night shift as a nurse. She still has a lot 
of family back home in Louisville. In fact, I think both of us 
were there last weekend to watch the Kentucky Derby.
    She earned her B.A. from Vanderbilt and her law degree from 
Catholic University here. Her husband, Clint, also serves our 
Nation as Director of Aviation Policy for TSA. She is the 
mother of two. You can tell she has been a really busy lady. In 
a relatively short time, she has already accomplished a great 
deal.
    She rose to become a partner in one of America's most 
prestigious law firms. She then selflessly chose to forego a 
more lucrative career in private practice to serve her country. 
Thanks to her, America is a safer place than it was on 
September 11. Now, the President has asked her to serve once 
more and she has answered the call.
    I can't tell you, Ms. Fisher, how grateful we are that you 
are answering the call again and I am proud to be here to 
introduce you.
    Senator Brownback. Thank you.
    Senator Grassley.

   PRESENTATION OF RACHEL L. BRAND, NOMINEE TO BE ASSISTANT 
    ATTORNEY GENERAL, OFFICE OF LEGAL POLICY, DEPARTMENT OF 
 JUSTICE, BY HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. I am equally proud to introduce a person 
that has strong roots in my State, a very young person, Rachel 
Brand. She has been nominated to be Assistant Attorney General, 
Office of Legal Policy, at the Department of Justice. A very 
excellent candidate, and we ought to be delighted that the 
President has chosen her for this position.
    Rachel and her family have strong Iowa connections. Her 
father was born and raised in Iowa. Her mother went to college 
in Iowa, and the Brand family lived in Pella, Iowa, for a long 
time. Recently, the family has moved to Michigan, but her 
father still works for the Vermeer Manufacturing Company in 
Pella and she still has much of an extended family remaining in 
Iowa.
    So we would extend a warm welcome to Rachel's husband, 
Jonathan Cohn; Rachel's mother and father, Ruth and Ivan Brand; 
Rachel's sister, Deborah Hansel, and her brother-in-law, Neil 
Hansel, and her niece, Megan Hansel.
    Rachel received her bachelor's degree in political science 
from the University of Minnesota-Morris and graduated with high 
distinction and honors. While in college, I first got to know 
Rachel because she interned in my Washington, D.C. office in 
1995. She did a very great job for me at that time, and as 
often happens we Senators realize that a lot of people who are 
interns in our office have a very good future and this proves 
to be true in the case of Rachel.
    Rachel, after college, got her law degree, cum laude, at 
Harvard Law School. In law school, Rachel excelled and was the 
deputy editor-in-chief of the Harvard Journal of Law and Public 
Policy. After law school, she clerked for Justice Charles 
Fried, of the Supreme Judicial Court of Massachusetts.
    Following her clerkship, Rachel was employed briefly as 
general counsel to the Elizabeth Dole for President Exploratory 
Committee, then joining the firm of Cooper, Carvin and 
Rosenthal, specializing in trial and appellate litigation.
    In January 2001, after a short stint as associate counsel 
to the Bush-Cheney transition team, Rachel joined the Office of 
Counsel to the President, first as assistant counsel, then 
associate counsel. In the Office of Counsel to the President, 
she provided legal and policy advice to White House officials 
on a wide range of issues.
    She left that position to serve as law clerk for Associate 
Justice Anthony Kennedy during the 2002-2003 term of the 
Supreme Court. In July of 2003, she became Principal Deputy 
Assistant Attorney General of the Office of Legal Policy. Here, 
she worked to develop and implement a variety of civil and 
criminal policy initiatives, assisting in supervising all 
aspects of the office's work. In March 2005, she became Acting 
Assistant of the Office of Legal Policy.
    This brief review of her background shows that she is 
uniquely qualified for the position of Assistant Attorney 
General of the Office of Legal Policy. She is a very 
intelligent individual, an excellent attorney and, of course, a 
very young age that we would all be jealous of. Rachel has 
remarkable accomplishments. She has an outstanding record, too, 
of public service. I know that Rachel will do a good job 
anyplace she goes, so I highly recommend her to this Committee 
and ask my colleagues to support her nomination.
    Thank you.
    Senator Brownback. Thank you, Senator Grassley.
    Senator Harkin.

   PRESENTATION OF RACHEL L. BRAND, NOMINEE TO BE ASSISTANT 
    ATTORNEY GENERAL, OFFICE OF LEGAL POLICY, DEPARTMENT OF 
 JUSTICE, BY HON. TOM HARKIN, A U.S. SENATOR FROM THE STATE OF 
                              IOWA

    Senator Harkin. Mr. Chairman, I am pleased to join with my 
colleague, Senator Grassley, to give my support to Rachel 
Brand, the nominee to head the Department of Justice's Office 
of Legal Policy.
    Rachel, as has been said, is a native of Pella, Iowa, known 
to many of you probably for its windows and doors, but known to 
the rest of us for the most beautiful tulips in Iowa, strong 
families and smart people.
    I will not go through all of her accomplishments. Senator 
Grassley did that, I think, quite effectively. All I would add 
is he mentioned a young age. Everything that Senator Grassley 
said Rachel Brand did--she did all that by the age of 32. It 
kind of puts a lot of us to shame. We wonder what we did with 
our time when we were young. It just shows you she has a great 
work ethic.
    Also, I must admit I went a step further about Rachel and I 
took my inquiries on Rachel back to the source in Pella. I 
asked the sheriff. Rachel's very proud uncle, Marvin Van 
Haften, who now heads the Iowa Office of Drug Control Policy, 
confirmed for me that his niece is indeed a fine, upstanding 
citizen, growing up in Iowa, as well as not surprisingly a 
straight-A student. Of course, Mr. Van Haften was the former 
sheriff of that county for a long time. I would also like to 
join with Senator Grassley in welcoming Rachel's parents and 
some other family members here today who still live in Pella.
    The Office of Legal Policy is one of the offices in the 
Department of Justice that not many people know about or 
understand. However, given that the office essentially handles 
policy changes for the Department of Justice, it is one that 
has a tremendous responsibility in shaping how we go forward in 
our fight against terrorism.
    In our continuing war on terror, balancing how to 
effectively fight terrorism within our criminal justice system 
and within our Constitution continues to pose new and difficult 
challenges that will fall squarely upon the person who heads 
this office. In selecting Rachel Brand, I believe the President 
has made a good choice to lead the Department in making those 
good balances between our Constitution and our criminal justice 
system and fighting terrorism. He has made a great choice and I 
join with my colleague in hoping that the Committee will 
confirm her rapidly.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator Harkin. We appreciate 
that support.
    If any of you, after presenting, need to leave for other 
meetings, it certainly is understood.
    Senator Harkin. Thank you, Mr. Chairman.
    Senator Brownback. Senator Cochran.

 PRESENTATION OF REGINA B. SCHOFIELD, NOMINEE TO BE ASSISTANT 
  ATTORNEY GENERAL, OFFICE OF JUSTICE PROGRAMS, DEPARTMENT OF 
JUSTICE, BY HON. THAD COCHRAN, A U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Cochran. Mr. Chairman, I am pleased to be here this 
afternoon to introduce Ms. Regina Schofield to the Committee 
and to recommend her confirmation as an Assistant Attorney 
General for the Office of Justice Programs at the United States 
Department of Justice.
    Ms. Schofield was born and raised and educated in 
Mississippi. We have a number of mutual friends in Franklin 
County, Mississippi, which she still claims as home, and she 
comes highly recommended to me by them.
    She received a bachelor's degree in business administration 
from Mississippi College and a master's degree from Jackson 
State University. She began her career in Government serving as 
Deputy Director of the Office of White House Liaison in the 
U.S. Department of Education. She later served as Manager of 
Government Relations at the United States Postal Service.
    In February 2001, Ms. Schofield became White House liaison 
to Secretary Tommy Thompson at the Department of Health and 
Human Services. In less than two years, she became Director of 
the Office of Intergovernmental Affairs at HHS, where she was 
the principal adviser to Secretary Thompson on the impact of 
Department policies on State, local and tribal governments.
    As Assistant Attorney General, Ms. Schofield would be 
responsible for the overall management and oversight of the 
Office of Justice Programs. Ms. Schofield has proven that she 
has the talent, the experience and the capability to serve with 
distinction as Assistant Attorney General in the Department of 
Justice. I urge the Committee to recommend her confirmation by 
the Senate.
    Senator Brownback. Thank you very much, Senator Cochran.
    And now the Honorable Trent Lott.

 PRESENTATION OF REGINA B. SCHOFIELD, NOMINEE TO BE ASSISTANT 
  ATTORNEY GENERAL, OFFICE OF JUSTICE PROGRAMS, DEPARTMENT OF 
 JUSTICE, BY HON. TRENT LOTT, A U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Lott. Thank you, Mr. Chairman, Senator Brownback, 
for allowing us to appear before you and the Judiciary 
Committee today in support of these very fine nominees. It is a 
great pleasure to join my senior colleague from Mississippi in 
endorsing the very fine nominee, Regina Schofield, to be 
Assistant Attorney General of the Department of Justice.
    I would like to ask that my entire statement be made a part 
of the record as I have it prepared.
    Senator Brownback. Without objection.
    Senator Lott. I want to extend my congratulations to the 
other nominees today. These are three very fine, very 
impressive, young people that will be going to the Justice 
Department in very critical positions and I am convinced they 
will do a magnificent job. In fact, the quality of these women 
probably will begin to straighten out the Justice Department in 
a way it has never experienced before. So I congratulate them. 
I am very proud to sit here and listen to their records of 
achievement and their work in the administration, or 
administrations, and to congratulate their families who are all 
here today. I know their families are very proud of them.
    I won't repeat what is in the resume of Ms. Schofield. 
Senator Cochran did a very fine job of that. I am very proud of 
her background, being from Bude, Mississippi. It is a long way 
from Bude, Mississippi, to Washington, D.C., and the Justice 
Department. In fact, if I gave you a map, you probably couldn't 
find it, but you have got some areas in Kansas pretty far out 
at the end of the road, too. It is a lot of beautiful people, 
and I know that community is very proud of Regina and her 
achievements.
    She has done a good job everywhere she has been. She has 
worked hard. She obviously has outstanding managerial skills 
and it is evidenced by not only her education and her work in 
different roles in the administration, at the White House, at 
HHS and the Department of Education, but she also served on 
multiple boards and commissions. She serves on the Board of 
Visitors of the College of William and Mary, where she oversees 
he school's budget. She also serves as a member of the Board of 
Trustees of the American Council of Young Political Leaders, an 
organization dedicated to developing the leadership potential 
of emerging leaders in politics and government.
    So in view of her history of service, certainly it is no 
surprise that she would receive this nomination. I am convinced 
she is going to do a wonderful job, particularly working in the 
Office of Justice Programs. And I must say I am very proud of 
the record of achievement and all that she has done in her very 
young life, and so I congratulate her and thank her for her 
dedication. I know she will be confirmed and will do a 
wonderful job at the Department of Justice.
    Senator Brownback. Thank you very much, Senator Lott. Thank 
you both, and all the Senators for presenting here today and 
introducing these nominees.
    We will now call up the three nominees, if they would come 
forward--Rachel Brand, Alice Fisher and Regina Schofield.
    We need to swear you in, if you would, ahead of time, so if 
you would please stand and raise your right hand. Do you swear 
that the testimony you will give to this Committee will be the 
truth, the full truth and nothing but the truth, so help you 
God?
    Ms. Brand. I do.
    Ms. Fisher. I do.
    Ms. Schofield. I do.
    Senator Brownback. Thank you. You may be seated.
    Well, this is quite a panel, ladies. I am looking forward 
to the testimony. We will start with Rachel Brand, if we could 
go with you first. If you have a full statement, we can put it 
into the record. That will be great. I would invite you if you 
have any family members here to introduce them. To me, this is 
a family obligation. You are the point person, but there is a 
whole bunch of troops behind you and I would like to recognize 
and thank them as well. So if each of you could do that, then I 
will have some questions after your testimony.
    Ms. Brand.

STATEMENT OF RACHEL L. BRAND, NOMINEE TO BE ASSISTANT ATTORNEY 
     GENERAL, OFFICE OF LEGAL POLICY, DEPARTMENT OF JUSTICE

    Ms. Brand. Thank you, Mr. Chairman. I do not have a full 
statement, although I do look forward to taking your questions. 
I have some thank yous, though, and some acknowledgements.
    I thank you for chairing this hearing so late on a 
Thursday. I know you have got a lot else on your plate with 
everything going on in the Judiciary Committee right now. I 
would like to thank the President and the Attorney General for 
their confidence in me through this nominations. I would like 
to thank Senators Harkin and Grassley for being here. It is a 
real honor for me to have the support of both of my home State 
Senators from Iowa.
    And, finally, I would like to acknowledge my family, 
especially my parents, Ruth and Ivan Brand, who have been 
introduced, and my husband, Jonathan Cohn.
    Senator Brownback. Could we have them stand if they are 
here--have the parents stand, and husband?
    [The individuals stood.]
    Senator Brownback. Great. Thank you very much for being 
here.
    Ms. Brand. I also have three other family members from out 
of town. My aunt Beckie and my cousin Katie drove from Michigan 
yesterday, and my sister-in-law Erica Cohn is here from New 
York, and so I thank them.
    Senator Brownback. You have got to stand, too. If you are 
going to drive that far for this, we want to see you.
    [The individuals stood.]
    Senator Brownback. Thank you very much for being here.
    Ms. Brand. And I have a number of other friends here, too, 
and I thank them all for being here. My siblings, Deborah, 
Thomas and Andrew, couldn't be here today, but I thank them for 
their support, as well, and I look forward to taking your 
questions.
    [The biographical information of Rachel Lee Brand follows.]

    [GRAPHIC] [TIFF OMITTED] T2785.001
    
    [GRAPHIC] [TIFF OMITTED] T2785.002
    
    [GRAPHIC] [TIFF OMITTED] T2785.003
    
    [GRAPHIC] [TIFF OMITTED] T2785.004
    
    [GRAPHIC] [TIFF OMITTED] T2785.005
    
    [GRAPHIC] [TIFF OMITTED] T2785.006
    
    [GRAPHIC] [TIFF OMITTED] T2785.007
    
    [GRAPHIC] [TIFF OMITTED] T2785.008
    
    [GRAPHIC] [TIFF OMITTED] T2785.009
    
    [GRAPHIC] [TIFF OMITTED] T2785.010
    
    [GRAPHIC] [TIFF OMITTED] T2785.011
    
    [GRAPHIC] [TIFF OMITTED] T2785.012
    
    [GRAPHIC] [TIFF OMITTED] T2785.013
    
    [GRAPHIC] [TIFF OMITTED] T2785.014
    
    [GRAPHIC] [TIFF OMITTED] T2785.015
    
    [GRAPHIC] [TIFF OMITTED] T2785.016
    
    [GRAPHIC] [TIFF OMITTED] T2785.017
    
    [GRAPHIC] [TIFF OMITTED] T2785.018
    
    [GRAPHIC] [TIFF OMITTED] T2785.019
    
    [GRAPHIC] [TIFF OMITTED] T2785.020
    
    [GRAPHIC] [TIFF OMITTED] T2785.021
    
    [GRAPHIC] [TIFF OMITTED] T2785.022
    
    [GRAPHIC] [TIFF OMITTED] T2785.023
    
    [GRAPHIC] [TIFF OMITTED] T2785.024
    
    [GRAPHIC] [TIFF OMITTED] T2785.025
    
    [GRAPHIC] [TIFF OMITTED] T2785.026
    
    [GRAPHIC] [TIFF OMITTED] T2785.027
    
    [GRAPHIC] [TIFF OMITTED] T2785.028
    
    [GRAPHIC] [TIFF OMITTED] T2785.029
    
    [GRAPHIC] [TIFF OMITTED] T2785.030
    
    [GRAPHIC] [TIFF OMITTED] T2785.031
    
    Senator Brownback. Good. We will have a few as we go along.
    Ms. Fisher.

STATEMENT OF ALICE S. FISHER, NOMINEE TO BE ASSISTANT ATTORNEY 
       GENERAL, CRIMINAL DIVISION, DEPARTMENT OF JUSTICE

    Ms. Fisher. Thank you, Mr. Chairman, for chairing this 
hearing. I, as well, would like to thank the President and the 
Attorney General for having confidence in me for this position, 
and thank Senator McConnell for that very nice opening 
statement.
    I would acknowledge my family members that are here--my 
mother, who is the mother of six--I was the baby--who taught me 
the work ethic by working the night shift while raising six 
kids, and my husband, Clint Fisher, who also works for the 
Government at TSA, and my two little boys, one of which is 
already asleep, a 3-year-old--that is probably why we aren't 
hearing him right now--Luke, and my son Matthew.
    Senator Brownback. Very good. We won't ask the father and 
the two children, but the mother, if you could stand, we would 
love to recognize you, if that would be possible.
    [Ms. Biedenbender stood.]
    Senator Brownback. Thank you for being here.
    Do you have a statement, any comments?
    [The biographical information of Alice S. Fisher Brand 
follows.]

[GRAPHIC] [TIFF OMITTED] T2785.032

[GRAPHIC] [TIFF OMITTED] T2785.033

[GRAPHIC] [TIFF OMITTED] T2785.034

[GRAPHIC] [TIFF OMITTED] T2785.035

[GRAPHIC] [TIFF OMITTED] T2785.036

[GRAPHIC] [TIFF OMITTED] T2785.037

[GRAPHIC] [TIFF OMITTED] T2785.038

[GRAPHIC] [TIFF OMITTED] T2785.039

[GRAPHIC] [TIFF OMITTED] T2785.040

[GRAPHIC] [TIFF OMITTED] T2785.041

[GRAPHIC] [TIFF OMITTED] T2785.042

[GRAPHIC] [TIFF OMITTED] T2785.043

[GRAPHIC] [TIFF OMITTED] T2785.044

[GRAPHIC] [TIFF OMITTED] T2785.045

[GRAPHIC] [TIFF OMITTED] T2785.046

[GRAPHIC] [TIFF OMITTED] T2785.047

[GRAPHIC] [TIFF OMITTED] T2785.048

[GRAPHIC] [TIFF OMITTED] T2785.049

[GRAPHIC] [TIFF OMITTED] T2785.050

[GRAPHIC] [TIFF OMITTED] T2785.051

[GRAPHIC] [TIFF OMITTED] T2785.052

[GRAPHIC] [TIFF OMITTED] T2785.053

[GRAPHIC] [TIFF OMITTED] T2785.054

[GRAPHIC] [TIFF OMITTED] T2785.055

[GRAPHIC] [TIFF OMITTED] T2785.056

[GRAPHIC] [TIFF OMITTED] T2785.057

[GRAPHIC] [TIFF OMITTED] T2785.058

[GRAPHIC] [TIFF OMITTED] T2785.059

[GRAPHIC] [TIFF OMITTED] T2785.060

[GRAPHIC] [TIFF OMITTED] T2785.061

[GRAPHIC] [TIFF OMITTED] T2785.062

[GRAPHIC] [TIFF OMITTED] T2785.063

[GRAPHIC] [TIFF OMITTED] T2785.064

[GRAPHIC] [TIFF OMITTED] T2785.065

[GRAPHIC] [TIFF OMITTED] T2785.066

[GRAPHIC] [TIFF OMITTED] T2785.067

[GRAPHIC] [TIFF OMITTED] T2785.068

[GRAPHIC] [TIFF OMITTED] T2785.069

[GRAPHIC] [TIFF OMITTED] T2785.070

[GRAPHIC] [TIFF OMITTED] T2785.071

[GRAPHIC] [TIFF OMITTED] T2785.072

[GRAPHIC] [TIFF OMITTED] T2785.073

    Ms. Fisher. No, but I look forward to your questions, 
Senator.
    Senator Brownback. Ms. Schofield.

   STATEMENT OF REGINA B. SCHOFIELD, NOMINEE TO BE ASSISTANT 
  ATTORNEY GENERAL, OFFICE OF JUSTICE PROGRAMS, DEPARTMENT OF 
                            JUSTICE

    Ms. Schofield. Thank you, Senator Brownback, and thank you 
again for chairing this meeting. We really appreciate it. I 
want to thank the President and Attorney General for their 
support in my nomination, and I appreciate Senators Cochran and 
Lott on their support. Bude is a long way from here, so I do 
appreciate it.
    I want to introduce my husband, Steve, and my son, Samuel, 
and my mother- and father-in-law, Bob and Doris Schofield, who 
had a very harrowing experience on I-95 today. So I appreciate 
them being here.
    Senator Brownback. If you can stand, please do it, from 
that harrowing experience.
    [The individuals stood.]
    Senator Brownback. Thank you for being here.
    Ms. Schofield. I appreciate the support of my friends today 
and there are a lot of them here today. So thank you.
    [The biographical information of Regina B. Schofield 
follows.]

[GRAPHIC] [TIFF OMITTED] T2785.074

[GRAPHIC] [TIFF OMITTED] T2785.075

[GRAPHIC] [TIFF OMITTED] T2785.076

[GRAPHIC] [TIFF OMITTED] T2785.077

[GRAPHIC] [TIFF OMITTED] T2785.078

[GRAPHIC] [TIFF OMITTED] T2785.079

[GRAPHIC] [TIFF OMITTED] T2785.080

[GRAPHIC] [TIFF OMITTED] T2785.081

[GRAPHIC] [TIFF OMITTED] T2785.082

[GRAPHIC] [TIFF OMITTED] T2785.083

[GRAPHIC] [TIFF OMITTED] T2785.084

[GRAPHIC] [TIFF OMITTED] T2785.085

[GRAPHIC] [TIFF OMITTED] T2785.086

[GRAPHIC] [TIFF OMITTED] T2785.087

[GRAPHIC] [TIFF OMITTED] T2785.088

[GRAPHIC] [TIFF OMITTED] T2785.089

[GRAPHIC] [TIFF OMITTED] T2785.090

[GRAPHIC] [TIFF OMITTED] T2785.091

[GRAPHIC] [TIFF OMITTED] T2785.092

[GRAPHIC] [TIFF OMITTED] T2785.093

[GRAPHIC] [TIFF OMITTED] T2785.094

[GRAPHIC] [TIFF OMITTED] T2785.095

[GRAPHIC] [TIFF OMITTED] T2785.096

[GRAPHIC] [TIFF OMITTED] T2785.097

[GRAPHIC] [TIFF OMITTED] T2785.098

    Senator Brownback. Good. Thank you all very much.
    The questions I have are not tough ones to drill you. We 
have heard the support from home State Senators, and the 
backgrounds each of you have are outstanding qualifications. I 
would, though, like to go down the bench and as you look at the 
place you have been nominated to, what is it you see as the top 
issue or issues that you are going to be confronted with in 
working there?
    I know you are not in the position yet. I don't know of any 
opposition to any of you going into these positions, so I think 
it clears through pretty quick, although strange things happen 
around here. What do you see as the top issues you are going to 
be confronting?
    Ms. Brand?
    Ms. Brand. Thank you, Senator Brownback. The Office of 
Legal Policy handles an extraordinarily broad range of issues, 
ranging from everything from tort reform to drug policy and 
terrorism. But the top priority of the Department of Justice, 
writ large, is the war on terrorism, and so that has been my 
focus as the Principal Deputy Assistant AG over the last couple 
of years and it will continue to be my primary focus going 
forward. There is a lot of legislation on the table this year 
and the threat of terrorism is not receding, so that will 
continue to be my top priority.
    Senator Brownback. Ms. Fisher?
    Ms. Fisher. Thank you, Senator. As well, for the Criminal 
Division the top priority remains terrorism and protecting our 
homeland. I had the opportunity, as you know, to work at the 
Department in the terrorism area for two years, and I look 
forward to working side by side with those very dedicated 
career people that work night and day combating terrorism. So I 
look forward to getting back with them. It is in my heart and I 
look forward to that.
    My other priorities would obviously continue to be 
corporate fraud and white-collar fraud. That continues to be a 
priority of the Department, as well as obscenity, child 
pornography and computer crimes, the whole range of computer 
crimes that are just rampant through our Nation right now. 
Whether it is drugs on the computer, obscenity, child 
pornography, we need to find better, effective ways to deal 
with these crimes. Guns and drugs, public corruption--these are 
also things that the Criminal Division is very focused on.
    Senator Brownback. Ms. Schofield?
    Ms. Schofield. Thank you, Senator Brownback. If confirmed, 
I would continue to advance the mission of the Office of 
Justice Programs and support the President's and the Attorney 
General's initiatives on DNA. There are some issues dealing 
with serving victims of crime. That is an issue that is very 
close to my heart and I would work tirelessly to support our 
local law enforcement, State and local law enforcement 
agencies.
    Senator Brownback. Ms. Brand, in the war on terrorism, it 
goes on and just today a group of us put in an immigration bill 
because one of the concerns that a lot of people have, and 
realistically, that we have got people coming over that seek to 
do us harm. A lot of people enter the United States legally 
each year and a lot of people enter illegally.
    The PATRIOT Act has had a lot of controversy, it seems, 
surrounding it. What is your take of its effectiveness in the 
war on terrorism, not the legal--and there have been a number 
of hearings held on that--but the effectiveness of what the 
PATRIOT Act has done to date?
    Ms. Brand. Thank you. Alice is certainly in a good position 
to answer this question, as well, having worked in the Criminal 
Division following 9/11. But we have seen in a number of cases 
the effectiveness of many of the provisions of the PATRIOT Act, 
particularly the provisions dealing with information-sharing 
between the criminal justice field and the intelligence field.
    The PATRIOT Act took down the wall, so to speak, that 
divided those different elements of the Government prior to the 
PATRIOT Act. Those provisions of the Act were used in the 
Lackawanna 6 investigation, the Portland 7 investigation, the 
Virginia jihad investigation, and others, and have really 
become part of the way of effectively doing business in 
combating terrorism now.
    Many of the Act's provisions also help us in the war on 
violent crime. There is, for example, a provision, Section 212, 
that allows Internet service providers to voluntarily disclose 
information if they see an imminent threat of death or serious 
physical injury. That has been used in cases ranging from 
defusing a bomb threat to rescuing a kidnapping victim and 
rescuing young girls who were kidnapped and taken across State 
lines by pedophiles. So it really has been effective across the 
board.
    Senator Brownback. Ms. Fisher, you mentioned a couple of 
areas that I am curious on how you think we are doing today or 
how we might improve both in corporate fraud and on the issue 
of pornography. We had the huge difficulty in the late 1990s on 
the corporate fraud. How do you feel we are doing today on that 
score?
    Ms. Fisher. Well, I think the Government has been very 
effective in combating corporate fraud. When I was at the 
Department, Sarbanes-Oxley was passed and the corporate fraud 
task force was set up to specifically focus on corporate fraud. 
And I saw the results while I was in the Government, and now 
being on the outside in private practice I have seen what 
effect those laws actually had on the board rooms across 
America.
    I think such things as the certification provisions that 
were put into Sarbanes-Oxley had a real effect on 
decisionmaking in boards of directors for our public 
corporations. I think the Government is doing a good job in 
increasing the awareness and being able to increase investor 
confidence in our public corporations because of the efforts of 
the Government in this regard.
    Senator Brownback. On pornography, there have been a number 
of charges that we have not taken this battle on. In spite of 
Supreme Court rulings that allow the prosecution of this on a 
local community standard basis, a number of groups are charging 
that there has just not been anything done on this.
    Ms. Fisher. Well, child exploitation and obscenity was not 
one of the areas that I supervised while I was at the 
Department before, but I know that recently the Department of 
Justice has set up an obscenity task force out of the Criminal 
Division to focus the Government's resources from not only 
within the Department of Justice, but also with other 
agencies--Homeland Security, postal inspectors, et cetera--to 
really focus on this problem. So I think that there will be a 
commitment to this going forward.
    What has happened with child pornography and obscenity 
because of the Internet is a really horrible thing and we have 
to take efforts now to combat it or it will continue to spread.
    Senator Brownback. I think the Justice Department is going 
to be key on this, and I met with the Attorney General about it 
and he mentioned it in his confirmation hearing. But the reason 
I say that is that you have the legal capacity to prosecute 
these cases that a number of people at State or local levels 
don't have.
    Even though the standard is on a community basis standard, 
you are the ones that have probably the expertise to be able to 
move, and much of it goes all across the country, if not 
internationally. I do hope you can step up and either provide 
assistance in prosecuting some of these cases on a State and 
local basis or take on some high-profile cases yourself in this 
process, because I do think a few prosecutions of selected 
items would have a significant impact on this. I think it is 
like a $10 billion industry now.
    Ms. Fisher. Well, I certainly plan on doing that, Senator, 
and looking at that and focusing on that if I am lucky enough 
to be confirmed.
    Senator Brownback. Ms. Schofield, you mentioned DNA issues. 
That has been certainly a big one on some capital punishment 
cases. Are we getting that information and technology 
widespread across the country now? Is it available to most 
jurisdictions to use on an as-needed basis?
    Ms. Schofield. I believe that the billion-dollar initiative 
that the President has proposed is to start relieving some of 
the backlog and provide our State and local laboratories and 
agencies with enough wherewithal to get going and get rid of 
some of those backlogs.
    Senator Brownback. I don't know, and maybe this isn't fair 
to ask, but do you know where that is in the allocation 
process? There has been that appropriation. Has it been 
allocated? Is it being allocated? Do you know where we are on 
that?
    Ms. Schofield. I think that the $1 billion is in the 
pipeline. I may be mistaken about that, but I would be happy to 
look into it.
    Senator Brownback. I was just curious.
    Ms. Schofield. There are two parts to it. There is $50 
million to help exonerate the innocent and educate defense 
lawyers and prosecutors, but there is also the $1 billion 
initiative to help with the backlog.
    Senator Brownback. The TV shows certainly have an impact on 
some of these, as well, that my family watches.
    Ms. Schofield. Yes.
    Senator Brownback. I don't get to watch them as often as I 
would like, but I get reports from the rest of my family 
members about a number of them.
    Thank you all for being here. I don't have further 
questions. You are outstanding nominees. I will certainly be 
supporting you. I don't know of any opposition. I hope we can 
move this through rapidly on the floor. We will keep the record 
open the requisite number of days.
    I do have a statement that we will put into the record for 
Senator Leahy, who unfortunately could not be here, but had a 
series of comments and some questions, I believe, that he is 
submitting to the various nominees. If you could respond to 
those in as rapid order as possible, that would certainly help 
out.
    I congratulate you. I congratulate your family members. I 
thank you for your public service. It is a tough life, it is a 
great life. It is a great one of contribution where you are 
giving of yourself to the country and really around the world 
by the standards that we put forward here. So I consider it a 
very high calling, and one in the Justice Department even more 
so. When you are helping to dispense justice, it is hard to 
have a higher calling than that. Thanks for doing it. God bless 
you all and we will move this on forward.
    The hearing is adjourned.
    [Whereupon, at 4:45 p.m., the Committee was adjourned.]
    [Questions and answers and a submission for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T2785.099

[GRAPHIC] [TIFF OMITTED] T2785.100

[GRAPHIC] [TIFF OMITTED] T2785.101

[GRAPHIC] [TIFF OMITTED] T2785.102

[GRAPHIC] [TIFF OMITTED] T2785.103

[GRAPHIC] [TIFF OMITTED] T2785.104

[GRAPHIC] [TIFF OMITTED] T2785.105

[GRAPHIC] [TIFF OMITTED] T2785.106

[GRAPHIC] [TIFF OMITTED] T2785.107

[GRAPHIC] [TIFF OMITTED] T2785.108

[GRAPHIC] [TIFF OMITTED] T2785.109

[GRAPHIC] [TIFF OMITTED] T2785.110

[GRAPHIC] [TIFF OMITTED] T2785.111

[GRAPHIC] [TIFF OMITTED] T2785.112

[GRAPHIC] [TIFF OMITTED] T2785.113

[GRAPHIC] [TIFF OMITTED] T2785.114

[GRAPHIC] [TIFF OMITTED] T2785.115

[GRAPHIC] [TIFF OMITTED] T2785.116

[GRAPHIC] [TIFF OMITTED] T2785.117

[GRAPHIC] [TIFF OMITTED] T2785.118

[GRAPHIC] [TIFF OMITTED] T2785.119

[GRAPHIC] [TIFF OMITTED] T2785.120

[GRAPHIC] [TIFF OMITTED] T2785.121

[GRAPHIC] [TIFF OMITTED] T2785.122

[GRAPHIC] [TIFF OMITTED] T2785.123

[GRAPHIC] [TIFF OMITTED] T2785.124

[GRAPHIC] [TIFF OMITTED] T2785.125

[GRAPHIC] [TIFF OMITTED] T2785.126

[GRAPHIC] [TIFF OMITTED] T2785.127

[GRAPHIC] [TIFF OMITTED] T2785.128

[GRAPHIC] [TIFF OMITTED] T2785.129

[GRAPHIC] [TIFF OMITTED] T2785.130

[GRAPHIC] [TIFF OMITTED] T2785.131

[GRAPHIC] [TIFF OMITTED] T2785.132

[GRAPHIC] [TIFF OMITTED] T2785.133

[GRAPHIC] [TIFF OMITTED] T2785.134

[GRAPHIC] [TIFF OMITTED] T2785.135

[GRAPHIC] [TIFF OMITTED] T2785.136

[GRAPHIC] [TIFF OMITTED] T2785.137

[GRAPHIC] [TIFF OMITTED] T2785.138

[GRAPHIC] [TIFF OMITTED] T2785.139

[GRAPHIC] [TIFF OMITTED] T2785.140

[GRAPHIC] [TIFF OMITTED] T2785.141

[GRAPHIC] [TIFF OMITTED] T2785.142

[GRAPHIC] [TIFF OMITTED] T2785.143

[GRAPHIC] [TIFF OMITTED] T2785.144

[GRAPHIC] [TIFF OMITTED] T2785.145

[GRAPHIC] [TIFF OMITTED] T2785.146

[GRAPHIC] [TIFF OMITTED] T2785.147

[GRAPHIC] [TIFF OMITTED] T2785.148

[GRAPHIC] [TIFF OMITTED] T2785.149

[GRAPHIC] [TIFF OMITTED] T2785.150

[GRAPHIC] [TIFF OMITTED] T2785.151

[GRAPHIC] [TIFF OMITTED] T2785.152

[GRAPHIC] [TIFF OMITTED] T2785.153

[GRAPHIC] [TIFF OMITTED] T2785.154

[GRAPHIC] [TIFF OMITTED] T2785.155

[GRAPHIC] [TIFF OMITTED] T2785.156

[GRAPHIC] [TIFF OMITTED] T2785.157

[GRAPHIC] [TIFF OMITTED] T2785.158

[GRAPHIC] [TIFF OMITTED] T2785.159

[GRAPHIC] [TIFF OMITTED] T2785.160

[GRAPHIC] [TIFF OMITTED] T2785.161

[GRAPHIC] [TIFF OMITTED] T2785.162

[GRAPHIC] [TIFF OMITTED] T2785.163

[GRAPHIC] [TIFF OMITTED] T2785.164

[GRAPHIC] [TIFF OMITTED] T2785.165

[GRAPHIC] [TIFF OMITTED] T2785.166

[GRAPHIC] [TIFF OMITTED] T2785.167

[GRAPHIC] [TIFF OMITTED] T2785.168

[GRAPHIC] [TIFF OMITTED] T2785.169

[GRAPHIC] [TIFF OMITTED] T2785.170

[GRAPHIC] [TIFF OMITTED] T2785.171

[GRAPHIC] [TIFF OMITTED] T2785.172

[GRAPHIC] [TIFF OMITTED] T2785.173

[GRAPHIC] [TIFF OMITTED] T2785.174

[GRAPHIC] [TIFF OMITTED] T2785.175

                                 <all>

</pre></body></html>
